RECORD:

Doc. 29, ResPondentrs HE 1

urutecl states v. tslarKey, /u9

l.

supp.

9/

I - Uourtllstener.com

ragetor.It

Courtlistener is a project of Free Law Project, a federally-recognized 501(c)(3) non-profit. We rely
on donations for our financial security.

\-

Please support our work with a donation.

Donate Now

*

United States v. HarkeyrT0g F. Supp.977 (E,.D. Wash. 1989)
Sign in or resister tg.save a favorite.
(click to dismiss)

District Court, E.I). Washington
Filed: March 23rd,1989
Precedential Status : Precedential

Citations: 709 F. SupP. 977
Docket Number: CR-8 8-244-S

\-

Author: Justi{r Lowe Ouackenbush
709 F. Stpp. 977 (1989)

UNITED STATES of America, Plaintiff,
v.

Michael Eugene HARKEY, Defendant.
No. CR-88-244-5.

United States District Court, E.D. Washington.
March 23,1989.

*978 Earl A. Hicks, Asst. U.S. Atty., Spokane, Wash., for plaintiff.
Robert D. McGoldrick, Spokane, Wash., for defendant'

\,

MEMORANDUM OPINION
ht+ns.//rr.rrr

il cnrrrtlistener com/onin ion/1587252/united-states-V-harkeV/

91412017

United States v. Harkey, 709 l'. Supp. 977

- CourtListener.com

PageJotlI

QUACKENBUSH, District Judge.
On January 27 , IgSg,this court imposed a sentence of 5 years on the defendant, based upon his
having been found guilty by a ju.y on October 18, 1988 of being a felon in possession of a firearm.
This 5-year sentence is the maximum pennitted by law; however, the Government contended that the
court was obligated to impose a mandatory 15-year term pursuant to 18 U.S.C. $ 92a(e)(1), based
upon the prior burglary convictions of the defendant. On January 21,1989,the court rendered its oral
opinion rejecting the contention of the Government and stated its reasons for that rejection. This
Memorandum Opinion is intended to memoialize the court's oral ruling and to incorporate recent
court rulings delivered subsequent to this court's oral ruling.

FACTUAL BACKGROT]IID
In the surlmer of 1988, Matthew Weist, a paid Government informant, informed Spokane police
officers and/or A.T.F. agents that his friend Michael Harkey owned a firearm. The police officers
directed Mr. Weist to talk with Mr. Harkey on the phone while they recorded the conversations to see
if Mr. Harkey would make an admission of possession of a firearm. Weist informed the offrcers that
he believed Harkey owned a .22 caliber pistol.
Thereafter, Weist concocted a story, with the assistance of the police officers, that he was to meet a
"biker," who Weist was afraid of, to collect a debt. Weist told this false story to the defendant Harkey
and asked Harkey to accompany him to Strllivan Park to meet the "biker." Weist requested Harkey to
bring his pistol. Harkey agreed to accompany Weist to Sullivan Park, where the police were waiting.
Har[ey was arrested, searched, and found to be in possession of a single-shot Derringer pistol.
On August 10, 1988, Harkey was indicted on the charge of being a felon in possession of a fuearm.
Mr. Hikey refused to plead guilty to the charge, alleging he was entrapped into committing the crime
by the police and their informant, Mr. Weist. Thereafter, on September 26,1988, the Government
filed an lnformation in which it claimed that if convicted, Harkey should be sentenced to not less than
l5 years without parole by reason of his prior burglary convictions.

Harkey was found guilty of the firearm charge on October 18, 1988. An initial sentencing hearing
took piace on Novemb"t 18, 1988. It is undisputed that Harkey has two prior felony convictions for
first iegree burglary and three prior felony convictions for second degree burglary, all under the laws
of the State of Washinglon.

*919 Atthe November 18, 1988 hearing, the court expressed concern over the failure of the federal
enhancement statute, l8 U.S.C. $ 92a@)Q)(BXii), to define or set forttr the elements of "burglary" as

referred to therein. The court pointed out that the elements of the Second Degree Burglary statute of
the State of Washington, gnder which Harkey was convicted, would legally allow a conviction of an
individual who lawfully walked into the Newberry's store with the intent of shoplifting some candy
therein. While the foregoing was an extreme example which the court would hope the exercise of
prosecutorial discretioi *orta preclude, the court's example illustrates the disparity which can arise
"butglary" is not given some definition.

if

ANALYSIS
Subsection 92a@)Q) Provides that:

hff^s.//rrnrnrr nnrrrflicter,er enrn/nnininn/1 5R7)5).ltnited-states-v-harkev/

9/4/2017

'ltJ9
Unrted States v, Harkey,

I. Supp' 9'l'/ -

Uourtllstener'com

yage4olll

In the case of a person who violates section 922(9) of this title and has three previous
convictions by any court referred to in section 922(g(l) of this title for a violent felony or
a serious drug offense, or both, such person shall be fined not more than $25,000 and
imprisoned iot less thanfifteen years, and, notwithstanding any other provision of law,
the court shall not suspend the sentence of, or grant a probationary sentence to, such
person with respect to the conviction under 922(9), and such person shall not be eligible
ior parole withiespect to the sentence imposed under this subsection. (Emphasis added).
Subsection 92a@)Q)@) defines the term "violent felony" as:
any crime punishable by imprisonment for a term exceeding one year that

(i) has as an element the use, attempted use, or threatened use of physical force against
the person ofanother; or

(ii) is burgtary, atson,or extortion, involves use of explosives, or otherwise involves
cinduct that presents a serious potential risk of physical iniury to another'
(Emphasis added). However, unlike its predecessors, the statute does not define "burglary."

\-.

The original bill, which established the mandatory minimum 15-year penalty, limited its application
to threJor more prior convictions for robbery or burglary, and defrned burglary as "any felony
with
consisting of entiring or remaining suneptitiously within a building that is property of another
intent to Jngage in cJnduct constituting a Federal or State offense." See The Armed Career Criminal
Act of Dg[,iub.L. gg-473,Ch. XVIII, 98 Stat.2185, codified at l8 U.S.C.App. 1202. Public Law
of a ftt9T"
99-30g expanded the mandatory prison term to include the convictions involving the use
by
punishable
crime
as
"any
during a drug traflicking offense, and contained the defidition of burglary
within a building
a teni of imfrisonment-exceeding one year and consisting of entering or remaining
or Siate
Federal
a
constituting
that is the prbperty of another with intent to engage in conduct
offense." Act of May 1g, l9g6, pub.L. 99-308, $ 104(a), 100 stat. 456,458. However, this language
or
was shortlived, and ty the Act of October 27, 1986, Congtess replaced the language "for robbery
burglary, or both," *ith "fo. a violent felony or a serious drug offense, or both." Pub.L. 99-570, 100
as set forth
stai. ziol-39, l g U.S.C. g 92a(e)(l). The statute then went on to define "violent felony,"
the statute
supra, to include "burglary." However, the definition of burglary formerly included within
was eliminated.
as
In inteqpreting the reach of a criminal statute, the court must determine the intent of Congress
477
States,
v.
United
Garrett
of
the
statute.
reflected in G language, structure, and legislative history
u.s. 773, ros s. ci. zioz , gsJ.F,d.2d764 (19s5). when these manifestations of congressional
irrt*t *. u-Uig*ur, ttr. Rrt..f L6tt), *quires the court to strictly construe the statute in favor of
n. 10, 69L.
the defendant . Llnited states v. Turkette, 45)tJ.5.576-, 587 n. 10, 101 s. ct. 2524,2530
8d.2d246 (19g1). This rule is based ,rp* th. concept that "a penal ttutotg must define the criminal
*i*i sufficient definiteness thai ordinary people can understand what conduct is prohibited
United
"ff.r,r.
and *9g0 in a manner that does not encourage arbitrary and discriminatory enforcement."
357 , 703
352,
U
Lawson, 461 -S '
States v. Chatman, g69 F .2d s.z5 (9th Cir. 1 989) (quoting Kolender v.
s. ct. 1855, 1858, l5L.Ed.2d903 (1983)).

handed down its decision
Subsequent to this court's hearing on November 18, 1988, the Ninth Circuit
in united stares v. sherbonay, g6s p .za gge (9th cir.1988). The Ninth circuit expressly rejected the
whether a
argument that it should look to the state law definition of "violent felony" in determining

htrns.//\r rrw nnrrrJlisfener com/oninionll587?-52lunited-states-V-harkeV/

914120t7

Unrted States v. Harkey,'/U9 F. Supp. 9 / I

-

Uourtltstener.com

Page5oIll

prior felony conviction should be counted for purposes of sentence enhancement. Rather, "we look to
the federal definition when determining whether a defendant was convicted of a violent felony." Id. at
100s.

The Sherbondy court then examined the language of subsection (i) and concluded that to utilize a
conviction under that subsection, the crime must have, as an element of the olfense, the use, attempted
use, or threatened use of physical force against the person of another. Id.In reaching that decision, the
court cited with favor the Fourth Circuit's decision in United States v. Headspeth, 852F.2d753 (4th
Cir.1988), which held that the defendant was not subject to sentencing under subsection (i) because
the crime of "storehouse breaking," as defined in the Maryland statute, did not have as an element the
use of force against the person. 852F.2d at756.In addition, "evidence of the specific acts involved in
the offense is irrelevant under subsection (i)." Sherbondy, at 1006.

Under Washington laws, RCW 9A.52.$A defines second degree burglary as

il

(1) A person is guilty of burglary in the second degree
with intent to commit a crime
against a person or property therein, he enters or remains unlawfully in a building other
than a vehicle.

It is clear that this definition

does not include, as an element of the offense, the use, attempted use, or
threatened use of physical force against the person of another. Therefore, second degree burglary, as
defined in Washington, cannot be utilized to enhance a sentence under subsection (i).

The court must next examine the language of subsection (ii). The Sherbondy courtnoted that the first
part of subsection (ii) "sets forth specific property offenses that Congress expressly wanted to cover,"
i.e., burglary, arson, extortion, or the use of explosives, which the court construed as "clearly
categorical .' Id. at 1008. The court then went on to state, in dicta, that "a burglar, for example, cannot
claim as a defense that his or her particular conduct was non-violent." Id. Congress believed that these
four categories involved conduct which poses a particularly serious risk of injury to others, even
though violence is not an element of the offense. Id. at 1009.
The dicta in Sherbondy is not dispositive of the question before this court, since 18 U.S.C. $ 92a(e)
does not define burglary. When Congress uses a common law term like burglary in a federal criminal
statute without otherwise defining it, Congress is presumed to adopt the meaning given that term at
common law. Morissette v. United States, 342U.5.246,263,12 S. Ct.240,249,96 L. Ed. 288
(1952); United States v. gmith, 574 F.2d 988, 990 (9th Cir.1978), cert. denied,439 U.S. 852,99 S. Ct.
158, 58 L. Ed. 2d156 (1978). The common law definition of burglary is "the breaking and entering of
the dwelling house of another in the nighttime with the intent to commit a felony." Bryless v. United
states, 3_81F.2d 67 (9th Cir.1967).

Burglary does not have a cofilmon, modern definition. An examination of burglary statutory
definitions for the states lying within the boundaries of the Ninth Circuit discloses that they vary
widely, both in defmitions and elements.tll None conforms precisely to the old common law
definition. Washington's first degree burglary statute *981 has eliminated every element of the
common law crime except the requirement that the building be a dwelling.t2l Should this court adopt
the position that the state definition of burglary should be applied in the sentencing enhancement
analysis, rather than the common law definition, the result would be that a defendant would be subject
to disparate treatment, according to the individual state's definition of burglary.

httos://www.courtlistener.com/ooinion/1587252/united-states-v-harkev/

9/4/2017

Urutect States v. Harkey,

'109 h . Supp.

9'/'l

-

Page6otll

UourtLlstener.com

Subsequent to this court's oral opinion on January 27,7989, the

Ninth Circuit decided United States v.

Chatman, 869 F 2d 525 (9th Cir.l989). The Ninth Circuit refused to recognize "auto burglary" as a
sentence-enhancing crime, and expressly adopted the Fourth Circuit's reasoning in United States v.
Headspeth, 952F.d753 (4th Cir.1988). Under this recent decision, the law of the Ninth Circuit is
that, "ty leaving the term burglary undefined, Congress intended it to have its common law meaning.
'Burglary'therefore means the breaking and entering of the dwelling house of another, in the
nighttime, with the intent to commit a felony therein." Chatman, at 527 .In reaching that decision, the
court felt that the context of the statute "suggests that Congress had in mind something more
dangerous than theft from a locked vehicle." Id. By the inclusion of the words "or otherwise presents a
serious potential risk of physical injury " , the Chatman majority felt that Congress intended to limit the
scope oith. act to those crimes which engender serious risk of injury to persons, and did not intend to
include all of the common properfy offenses that states might choose to denominate as "burglary." .Id.
at 528.

Although Chatman seems dispositive of the issue now before this court, being a decision from the
Ninth Circuit, this court has some remaining concerns about this matter.ln Chatma4 the court
expressly stated that one of the bases for its decision was that it wished to "avoid creating an
gnnecessary intercircuit conflict on this novel issue." .Id. However, it appears a conflict between
circuits does exist. At the present count, only the Fourth Circuit and the Ninth Circuit have reshicted
the statute to its common law definition.
The Seventh Circuit, n United States v. Dickerson, 857 F .2d 474 (7th Cir. 19 88), petition for cert.
filed December 24, 1988, heldthat all burglaries satis$ the prerequisites of S 924. Id. at 4l9.In that
particular case, the defendant was convicted of entering residences, although he was not armed' He
argued that his burglary convictions were therefore not "violent felonies," The court did not agree.In
examining the language of $ 924(d) the court noted that, "if Congress intended to include only crimes
in which some serious physical injury was involved, it would have worded the statute to say
'burglary, ruson, or extortion, and involves the risk of explosives or otherwise involves conduct that
presents a serious risk of physical injury to another'." Id.lt did not do so.
v. Headspeth, supra, the Fourth Circuit reached the opposite conclusion. In that case,
the defendant had two priorrobbery convictions, but challenged that his third prior felony, which
involved "storehouse breaking," was not a "violent felony" within the meaning of $ 92a@). The court

ln Ilnited States

agreed. The court determined that "storehouse breaking" as defined in the Maryland statute[3] did not
have "as an element the use actual, attempted, or threatened of force against the person.' Id. at756,
The court examined $ 92a(e) and determined, that, since it did not define burglary, Congress intended

to adopt the meaninggiven that term at*982 common law. Id. at757 (citing Morrissette v. United
Statei 2q2U.5.246,263,72 S. Ct.240,249,96 L. Ed. 288 (1952)). Within that definition, "the
g.rr".i.-t.r*bu.glary would not encompass the specific offense of storehouse breaking set forth in
Md. Code Ann. art. )7,5 32,because the latter does not involve a dwelling house in the nighttime."
Id. T\ecourt refused to apply the more expansive burglary definition formerly included in $ 924(e),
which it conceded would have included storehouse breaking, because that definition had been
specifically deleted by Congress. In reaching this decision, the court noted:
after $
[T]his broad statutory definition of burglary was extremely short-lived. Two days
SZ-l1"1was enacted and several months before it became effective Congtess began to
consider expanding the list of predicate offenses that would tigger it. See Armed Career
Criminal Legislation: Hearing on H.R. 4639 and H.R. 4768 before the Subcomm. on
Crime of the House Comm. on the Judiciary, 99th Cong., 2d Sess. 44 (May 27,1986)

httos://www.courtlistener.com/oninion/1 58725Z/uruted-states-v-harkevi

914/2017

Urutecl States v. Harkey,

'109

F

. Supp. 9'/'l

-

Courtltstener.com

Page

'/ ot I I

general consensus that the
[hereinafter Hearing]. At the ensuing hearings, there was a
together
with their respective
and
"burglary,"
ipecific predicate offenses of "robbery"
aennitions, should be replaced with the more general terms "serious drug offense" and
"violent felony." See H.R.Rep. No. 849, 99th Cong., 2d Sess. 3 (1986). There was
considerable disagreement, though, about how to define the term "violent felony."
One proposed amendment, introduced by Representative Wyden of Oregon, favored a
broad definition which would include crimes against both persons and property:

(A) an offense that

has an element the use, attempted use, or threatened use of physical

force against the person or proper,ry of another; or

(B) any felony which, by its nature, involves a substantial risk that physical force against
the person or property of another may be used in the course of committing the offense.
H.R.4639, 99th Cong., 2d Sess. (1936) (emphasis added). This proposal drew a fluny of criticism, for
the inclusion of property crimes was thought to be an unwananted extension of federal criminal
jurisdiction wtrictr *ouid both encroach upon state sovereignty and overload the federal prison
system. See, e.g., Hearing at l1 (statement of Rep. Hughes).

A

second proposal, introduced by Representatives Hughes and McCollum, would have

defined thl term "violent felony" much more narrowly as "any Sate or Federal felony that
has as an element the use, attempted use, or threatened use of physical force against the
personof another." H.R. 4768,99th Cong.,2d Sess. (1986) (emphasis added). This
definition would have excluded burglary as a predicate offense, because the actual or
threatened.use of force against the person is not an element of that offense, either at
cornmon law or under thi original g 92a@)Q)@). See Hearing at26.(statement of Rep.
Hughes) (indicating that the exclusion of burglary was deliberate).
The Hughes/lv{cCollum proposal was roundly criticized for its failure to include burglary,
arson, *d oth"t violent crimes against property which, though they did not have the
actual or threatened use of force against the person as an element, nonetheless posed a
severe inherent danger to human life. See, e.g., Heaingatg (statement of Rep. Wyden);
id. at23-24 (statem-nt of James Knapp, Deputy Ass't Attorney General, Crim. Div.,
U.S.Dept. of Justice).

The amendment that was ultimately passed, and now appears as 18 U.S.C - $ 92a@)Q)
(B), was a compromise of sorts ... designed to satisff the proponents of H.R.4639, while
the limitation oithut provision to crimes which present a serious risk of injury to the
person was a concession to those who favored H.R' 4868'

Id. at757-58.
In
The Eleventh Circuit addressed this issue in United States v. Hill, 863 F.2d 1575 (l lth Cir.l989).
*983
establishments,
of business
that case, the defendant had been convicted of daylight burglaries
court refused to restrict S 924
The
burglary.
of
definition
law
clearly outside the scope of the common
as
an
"historical anomaly," to
(e) to the common law definition of burglary, which it characterized
*iri"t only a handful ofjurisdictions today adhere. Id. at 1582. The court found it proper to consider
the legislative history of the statute as a whole, not merely of the amendment. It emphasized
all
Congiess's intent to Lxpand the coverage of $ 92a@) through a definition that would encompass

httns. //rvrvw corrrtl i sfener c.nm/oni n ionl

1 5R7

?.52-lrrnited -states-v-harkev/

9t4/2017

'/09 t'. Supp. 9 l'/
Unrted States v. Harkey,

- Uourtllstener.com

rage 6 oI

ll

the offenses under the old Act, while adding certain drug offenses and other violent crimes. -Id at
1580. Its research disclosed that during the Senate Hearing there was no hint of narrowing the scope
of the Act, nor was there any mention of the old common law definition of burglary. /d. The court
also pointed out that, although H.R. 4768 appeared on its face to eliminate using the Armed Career
Criminal Act against personi with prior convictions for burglaries, the House hearing revealed a
contrary underianding, "at least on the part of its cosponsor," who suggested that the bill would
expandthe predicate offen..r, while still including bwglary and robbery. House Hearing at 7
(remarks of R"pr"."ntative McCollum). Finally, the court emphasized that any differences between
ih. propor.d bills went to how much Congress should expand the predicate offenses . Id. at I 5 8 1 . The
court concluded that "Congress intended that any burglary that would have met the definition of
blrglary under the previoui act would fall within the meaning of burglary in the amended definition."

Id. at 1582.
portwood, 857 F.2d 1221(sth Cir.1988), petitionfor cert. filedFeb. 11, 1989, the
the
Eighth Circuit refused to recognize any ambiguity in $ 924(e),and therefore declined to explore
legislative history. It stated:

In (Jnited

States v.

In our view, the statute says "burglary," and we take that to mean "burglary," however a
state may choose to define it. Congress could quite reasonably conclude that no matter
what the felon's intent upon breaking in, the property owner may return, a neighbor may
official may rcspond. All of these scenarios present a
investigate, or a law
"nfot""-"nt
grave threat of harm to persons. A person with three prior convictionsfor burglary,
iegardless of the details of each burglary, presents the type of potential threat to society
that congress sought to control by the enactnent of $ 924(e).

\.-

Id. at t223-24. The Eight Circuit reaffirmed that positio n n lJnited States v. Taylor' 89a \.?d Q5 .(9th
Cir.19g9), although wilth a strong, well-reasonedhissent by Senior Circuit Judge Bright. Judge llgttt
and its
argued that portwood cotildnot 6e justified upon a careful examination of the federal statute
or by the
en
banc
lelislative history, and suggested that Portwiod "needs re-examination by this court
Uiitea States Supreme C;,r.t." In addition to extensively quoting from Headspell's careful analysis of
pointed
the legislative history, which Judge Bright characterized as "instructive and dispositive," he
degree
out that conduct amounting to stoiehouse breaking in Maryland would be at least second
burglary in Missouri. And,
a taffic offense of wrongful
[flollowing the majority's analysis to its logical conclusion,
using a parking space, if labeled
iarking, i.e., the tai<ingof someone else's privilege of

turght

by a state, could be used to enhance a sentence under section 924-

do not believe the application of a federal sentence enhancement provision should turn
on the differing labeli given to similar conduct by the various states. Such application
treats similarly situated persons differently for the purpose of a federally imposed
sentence. I find it unlikely Congress would have intended such a result.

i

Id. a|628.
in
The difficulty the courts have had with this question is shown by Judge O'Scannlain's dissent
a
enacted
would
have
Chatman, ,ipro. Judge O'Scannlain pointed out the unlikelihood that Congress
Maryland
statute limited to a brirglary definition which today is retained by only two of the 50 states,
court
*984
the
other
state,
in
any
For the statute to apply to any burglary
and virginia. Id. at 530.
in
would have to look at the facts of the particular case, clearly proscribed by the Ninth Circuit

httns.//u^rrw corrrflistener com/onin ionl15*7252lunited-states-v-harkeV/

9t412017

United States v. Harkey, 709

t. Supp. 977 -

Courtltstener.com

Page9oIll

Sherbondy, supra, as involving mini-trials long after the event, so as to be able to determine whether
one or more of the common-law elements had been satisfied.

\-

On January 27,1989,this court entered its oral ruling that the cornmon law definition should be
applied, based upon its independent analysis of the legislative history and the cases decided prior
thereto. Chatman reaffirmed this court's ruling, but did not eliminate all of the court's concerns, some
of which are reflected in the decisions of other circuits noted above. This court continues to hold that
only those burglaries which meet the common law definition, or which otherwise fall within the
language of $ 92a(e), can be utilized to enhance sentences under $ 92a(e). Accordingly, this court
must find that second degree bwglary, as defined in RCW 9A.52.030, cannot be utilized by the
Government as a means of enhancing a sentence under $ 92a(e) solely on the basis that it is within the
category "burglary." Clearly, if Congress desires to include burglaries with elements other than those

of common law burglary, it is free to so legislate.
There remains the question whether second degree burglary falls within the remainder of the
definition of "violent felony" in subsection (ii), i.e., does it otherwise involve conduct that presents a
serious potential risk of physical injury to another. On the basis of United States v. Sherbondy,865
F.2d996 (9th Cfu.l988), it does not. As Sherbondy stated:
The second part of subsection (ii), the "otherwise" clause, is the generalized version of
this categorical approach; it refers to other unspecified categories of offenses that present
a serious potential risk of physical injury to another. We do not view the "otherwise"
clause as an indication by Congress of its intention to abandon the categorical approach it
uses throughout the section in favor of one that requires courts to examine individual acts
in the case of the unspecified offenses; rather we construe it as an attempt to set forth a
general description that serves to expand the intended categories beyond the four

\-

explicitly listed.

Id. at 1008. As examples of such crimes, the court identified manslaughter and kidnapping.
Nor does Sherbondy permit, as the Government has urged, an examination of the specific
circumstances of defendant's prior second degree burglary convictions to determine whether they
posed such a potential threat of harm to persons. As the Sherbondy court further explained:

it is unlikely that Congless would implicitly authorize, without any express language in
FOPA, ad hoc mini-trials regarding an individual's prior criminal conduct. The problems
with such hearings are evident. Witresses would often be describing events years past.
Such testimony is highly unreliable. As in Sherbondy's case, the witresses might be
persons who did not even testi$ at the earlier criminal proceeding. In many cases,
witresses to the events in question might be unavailable altogether. Additionally, there
would likely be substantial problems with court records and transcripts relating to earlier
convictions. These problems become especially difficult in a case like Sherbondy's
where, because the conviction was based on a guilty plea, there is little or no
contemporaneous record developed. The difficulties inherent in conducting evidentiary
hearings many years after the event provide additional support for our view that Congress
intended judges considering sentences under FOPA to determine only whether the
statutory or common law offenses to which the individual was previously convicted are
ones that are covered by by [sic] section924-

Id

at 1008.

htfns./Ar

r nenrrrtlisfener

com/nninion/15R7252/united-states-v-harkev/

91412017

'lUg
Unrtecl States v. Harkey,

Y

. Supp.

9'/'l

-

Courtltstener.com

Page

l0 ot I I

in conclusion, due to the ambiguity in $ 924(e), and the limited guidance offered by the legislative
history, coupled with the r"..trt Ninth Circuit decision in Chatman, the rule of lenity requires this
*985 admits
court io .onitro. $ 92a(e) in favor of the accused. "Where the language of a penal statute
of more than one intelpietation, courts should choose the least harsh construction, the one least likely
to impose penalties Congress did not intend." Id. at 1009 (citing United States v. Bass,404 U.S- 336,
347,92 S.-Ct. 515,522,J0 L. Ea. za +SS (1971). Accordingly, this court holds that second degree
U*gtury, ur d"fr"d in RC* 9A.52.030, does not meet the definition in either subsection (i) or
subiection (ii) for a crime of violence. Therefore, defendant's prior second degree burglary
convictions'cannot be used for purposes of enhancing his sentence under 18 U.S.C. $ 92a(e).

IT IS SO ORDERED. The Clerk is directed to

enter this order and furnish copies to counsel.

NOTES
l8-1401, -1402,-1403;
itevised Code of Montana, qs-a-ioq; oregon Revised Statutes 164.215,164.225; California Penal
code gg 45g,460;Alaska statutes $$ t t.4o.roo; 11.46.310; Nevada Revised statutes $ 205'060;
arizona Statutes $$ l3-1506 ,13-1507,13-1508; and Hawaii Statutes $$ 708-810 and 708-81l.

[l]

See, Revised Code of Washington, 9A.52.020 and .030;Idaho Code $$

person is guilty of burglary in the frst
t2l RCW 9A.52.020 defines burglary in the first degree as: "A
a"gr"" i[ with intent to commit a crime against a person or properly therein, he enters or remains
the
unlawfuliy in a dwelling and if, in entering or while in the dwelling or in immediate flight thereof,
assaults any person
actor or another participant in the crime (a) is armed with a deadly weapon, or O)

therein."
\

\-

as "breaking [into] astorehouse, filling
t3] Md.Ann.Code art.27,$ 32 defined "storehouse breaking"
,tution, garage, tailer, .ub"in, diner, warehouse or other outhouse or into a boat in the day or night
with an intent io commit murder or felony therein, or with the intent to steal, take or carry away the
personal goods of another of the value of $300 or more therefrom...."

About
Visualizations
FAO
Tour
Donate
Citation Lookup
Cover?ge
APIs and Bulk Data
Feeds & Podcasts
Jurisdictions
Blos & Newsletter
Contact
Data Services
Contribqte
Terms & Privacv
Remgval

i\

httns://www.cottrtli.stener-com/onin ion/1587252/united-states-v-harkev/

91412017

united States v. Harkey, 709 F . Supp. 977

-

Pagellofll

Courtlistener.com

Donate
Support our wtlrk

Courtlistener is sponsored by the non-profit Free Law Proiect.

ooooo

L++-^. //,,

nnrr*rl i o+a-or ^^n /nni -i n- /1 ( R?? (? /rrnif ed-cf qtpc-v -herk

est

l

9t4/2017

Pagelotll

United States v. Michael Bugene Harkey (985 F.2d 575)

Legal Dictionary

Court Cases
Search entire site...
LEGAL

IQ

/

COURT CASES

/

UNITED STATES V, MICHAEL EUGENE HARKEY

Il ElBgg
UNITED STATES 7),
MICHAEL EUGENE HARKEY
Court Case Details

Case Name: United States v. Michael Eugene
Harkey
Couft: Court of Appeals for the Ninth Circuit
Filed: January 25, t993

\-

Precedential Status: UnPublished
Citationsr 985 F.2d 575
Docket #;91-30397

ABOUT LEGAL IQ
Providing free legal
dictionary, based on
Black's Law
Dictionary, along with
legal articles and
opinion, We provide
an ad free experience.
Please spread the
word by linking to us.

POPULAR LEGAL
TERMS
Fair Trial

One conducted
according to due
course of law; a trial
before a competent

Court Case Opinion

985 F.2d

575

NoTrcE: Ni nth ci rcui

t

and...

Rul e 36-3

provides that disPositions other
than opi ni ons or orde rs des'i gnated
for publication are not
precedential and should not be
cited except when relevant under
the doctrines of law of the case'
res j udi cata, or col I ate ral
h*^, lnanali^ ^^m/r'-oce/ITnifed Stafps V Mic.hael F.ttpene Harkev

Walkout Strike
Industrial where
employees leave
work site an will not
return.
Between
As a measure or
indication of
distance, this word
has the effect of
excluding the ...

91412017

Page'2

United States v. Michael Eugene Harkey (985 F.2d 575)

Levissima CulPa
Slight fault or
negligence. See 8
Barb. (N. Y.) 368'

estoppel.
UNITED STATES Of AMCTiCA,
Pl ai
t'ai

chae'l

nti f f -APPel'l ee ,

V.
eugene HARKEY, DefendantAppe'l I ant .
No. 91--30397

uni

cou

t'ti

nth

1

Appeal from the United states District coutt for
the Eastern District of Washington; No' CR-88244-JLQ, lustin L. Quackenbush, Chief District
Judge, Presiding,

2

E.D. Wash. IAPPEAL AFTER REMAND FROM, 923
F.2d 138.1

3

AFFIRM ED.

4

Before FARRIS and KLEINFELD, Circuit Judges,
and EZRA,** District Judge.

MEMORANDUM***

6

Regimiento
(Spanish) A
municipal council
composed of not to
exceed twelve
regidores or ...

.

rt of Appeal s ,
ci rcui t.
submi tted lan. 8, l-993 '.
oecided lan. 25, 1993.

ted states

oI I I

Open Seating
Seating plan that
does not allocate
seats to particular
people. TyPicallY,
seats ...

Annually Renewable
Term Policy
A policy that covers
for one year and can
be continued with no
evidence of ,,.
Reckless Burning
Reckless burning is a
crime that involves
illegally setting fire

to something not '.,
Overlord SYstem
The Overlord sYstem
was a popular name
given to a short lived

Michael Harkey appeals his fifteen year

structure of ...

mandatoryminimumsentenceundertheArmed
Career Criminal Act, 1B U.S'C' $ 924(e),
following his conviction for being a felon in
possession of a firearm in violation of 1B U'S'C'
5 g22(g)(1)' He contends that the district couft
should not have considered four prior burglary

Admortization
The reduction of
property of lands or
tenements to
mortmain, in the
feudal customs.

convictions,twofromL}TTandtwofromL9T9.

t.++^./Aaaolin

Sfafcc V Mic.hael Frtqene HarkeV

91412017

United States v. Michael Eugene Harkey (985 I'.2d 575)

Page 3

ot'l

I

Because we find that the district court properly
considered at least the three required prior

convictions, we affirm.

I
B

Facts,

In 1977, Harkey was arrested on burglary
charges. He entered into a plea agreement with
prosecutors requiring him to disclose, inter alia,
the identity and involvement of others in the
burglaries and the identity of people who fenced
the property for him. In exchange, the state
agreed not to charge Harkey on other known
burglaries, to release him pending presentence
investigation, and to make an affirmative
recommendation of probation with restitution at
sentencing.

9
\-

On August 5, t977, Harkey pled guilty to two
counts of second degree burglary. Before

accepting the pleas, the court explained to
Harkey the nature of the charges and the
consequences of pleading guilty. The court also
informed him of his right to have an attorney,
the right to a jury trial at which the state would
have to prove his guilt beyond a reasonable
doubt, and his right to confront any witnesses
against him in open court' Harkey stated that
he understood the rights he was waiving by
pleading guilty and he admitted to the factual
basis of the offenses presented by the
prosecutor. Harkey also signed a statement
acknowledging his guilt and waiver of various

rights.

10 At the sentencing hearing on November 30,
1977, Harkey's attorney and the prosecutor
expressed an understanding that the plea

tnxn.tAano'lin nn,-l('qcplIlni+cA

Sfatec V Miehapl F.rroene Harkev

9/4/2017

Page4of1l

United States v. Michael Eugene Harkey (985 F.2d 575)

agreement was null and void due to Harkey's
failure to divulge the names of others. Harkey
did not move to withdraw his guilty plea, nor
did he claim that the government had breached
the agreement.

11 In 1979, Harkey was again arrested for
burglary. On November 5, L979, he pled guilty
to three counts: first degree burglary, second
degree burglary, and escape. During the plea
proceedings, the court explained to Harkey the
nature of the charges and Possible
consequences of pleading guilty, and informed
him of his rights to a jury trial, to confront
witnesses against him at trial, to refuse to
testify, and to have an attorney regardless of
his ability to afford one. Harkey again signed a
statement acknowledging his guilt and waiving
rights,

\-

12

Harkey was again convicted of first degree
burglary on Febru ary 24, 1984. That conviction
was not challenged below, and is not challenged
on appeal.

13 In August 1988, Harkey was indicted for being

a

felon in possession of a firearm in violation of
18 U.S.C. Q 922(9)(1). He was convicted after a
jury trial on October 18, 1988. At his initial
sentencing hearing, the district court held that
second degree burglary did not count as a
"violent crime" for purposes of sentence
enhancement under the Armed career criminal
Act, 1B U.S.C. 5 92a(e)' The court therefore
decllned to impose the fifteen year mandatory
minimum sentence required under the Act'
g8s
United States v. Harkey, 709 F.Supp' 977 ,
(E.D.Wash, 1989). The government appealed
rAx^. t

t1^^^lin aa^l(1aoo/I Tni.to.l Q+atpc V Minhacl F.rroene FIarkeV

9t412011

Uruted States v. Mtchael Eugene l{arkey (985 F.Zd 575)

Page5ofll

that decision, and ultimately obtained a remand
for resentencing in light of the intervening
decision of the Supreme Court in Taylor v.
United States, 110 S.Ct.2143 (1990), which
held that second degree burglary was a "violent
crime" for purposes of 1B U.S.C. 5 92a(e).
United States v. HarkeY, 923 F.2d 138 (gth
Cir.1991).

L4 On remand, the district court considered

and
rejected Harkey's challenges to the L977 and
LgTg burglary convictions. The court sentenced

Harkey to the fifteen year mandatory minimum
sentence and three years supervised release.
Since the fifteen year sentence must be
imposed when a person has three previous
convictions for violent felonies, the district court
found that the two 1979 convictions, along with
the 1984 conviction, were sufficient to support
the mandatory minimum sentence. To make the
record complete for an appeal, however, the
court also specifically found that the two L977
convictions were validly obtained.

\-

15. Analysis'
A5

Burdens of Proof.

77 When the government seeks to use prior
convictions to enhance a defendant's sentence,
it has the initial burden of proving the fact of
conviction. United States v. Newman, 9LZ F'2d
1119, LL22 (9th Cir.1990); United States v'
Carroll, 932 F.2d 823,825 (gth Cir'1991)' The
defendant then has the burden of establishing
the constitutional invalidity of the prior
conviction by a preponderance of the evidence'1
Newman, gLz F.2d at tL22; Carroll, 932 F'2d at

httn.//lpoalin nnm/f-ccc/TTnited States V Mic.hael F.ttpene Harkev

9/412017

Unrted States v. Mrchael Eugene Harkey (985 f,'.2d 575)

Page 6

ot'l

l

825. Here, the government met its burden of
proving the fact of conviction for all of the
burglaries. Thus, Harkey had the burden of
proving the constitutional invalidity of the 1977
and 1979 burglary convictions by a
preponderance of the evidence.
88

The 1979 Burglary Convictions.

19 Harkey challenges his 1979 convictions on the
ground that his guilty plea was not voluntary
and intelligent due to ineffective assistance of
counsel, the emotional distress caused by the
loss of his mother, and an insufficient dialogue
with the state court. The voluntariness of a plea
is reviewed de novo. Butcher, 926F.2d at 817.
Factual matters concerning the validity of a plea
are reviewed for clear error. Id.

l0 Ineffective Assistance of Counsel'

2I

Ineffective assistance of counsel may render a
guilty plea involuntary. United States v. Zweber,
9I3 F.2d 705,7L2 (gth Cir.1990). To prove
ineffective assistance of counsel, the defendant
must show (1) that the representation was
outside the wide range of professionally
competent assistance, and (2) the deficient
performance prejudiced the defense. Hill v.
Lockhart, 474 U.S. 52 (1985); United States v.
Signori, 844 F.2d 635,638 (gth Cir'1988). The
question of whether a defendant received
ineffective assistance of counsel is reviewed de
novo. United States v. Signori,943 F.2d L07O,
L072 (9th Cir.1991).

22

Harkey claims that his former attorney failed to
advise him on possible defenses, such as lack of

t++n,l11onalin onml(-acc/Ilni+eA Sfefes

V Michael F.ttsene Harkev

91412017

urureo Jtales v. lulcnael Eugene HarKey (yU)

r.n J l))

Page

/ oI -t I

intent due to the effect of drugs and alcohol,
and failed to investigate the facts adequately.
The evidence of ineffective assistance of counsel
proffered by Harkey is insufficient to show a
"reasonable probability that, but for counsel's
errors, he would not have pleaded guilty and
would have insisted on going to trial ." Hill, 474
U.S. at 59. Since he failed to show prejudice, it
is unnecessary for us to evaluate the
competence of his counsel's actions.
23

Emotional Distress.

24 The district court found Harkey's claim that the
emotional distress caused by his mother's death
rendered him unable to enter a voluntary and
intelligent plea not credible. We give special
deference to a lower court's credibility findings.
United States v. Ramos, 923 F.2d 1346, 1356
(9th Cir.1991). We find no reason to overturn
the district court's determination that Harkey's
guilty plea was not rendered involuntary due to
the distress caused by his mother's death'

\-

35

Dialogue With State Court'

26

Harkey also claims that his dialogue with the
state court was insufficient to determine
whether his guilty pleas were voluntary and
intelligent. "[T]he propriety of a state court plea
involving constitutional rights is measured by
federal constitutional standards, not federal
statutory requirements." Newman,9t2 F'2d at
Lt23 (holding that Fed.R.Crim.P. 11 is not
binding on a state court). To show that a guilty
plea was voluntary and intelligent, a state court
record must show that defendant voluntarily
waived three rights: (1) the right to a jury trial,

httn.//lcoalin enm/Case/tInit.ed States V Michael Eugene Harkey

91412017

United States v. Michael Eugene Harkey (985 F.2d 575)

Page8of1l

(2) the right to confront one's accusers at trial,
and (3) the right against self-incrimination.
Boykin v. Alabama, 395 U.S. 238 (1969);
Butcher, 926 F.2d at Bt7; United States v.
Graibe, 946 F.2d 7428,1430 n. 1 (9th
Cir.1991). A defendant must also understand
the nature of charges to which he is pleading
guilty and the possible consequences of a
conviction. Newman, 9 t2 F.2d at 1123.

27

the 1979 plea proceedings reveal
that Harkey was advised of his "Boykin rights"
and entered his guilty pleas voluntarily. In
Records of

addition, the factual predicate for the crimes
and the consequences of guilty plea were fully
established.2 The fact that most of Harkey's
responses to the court were brief and that he
often merely agreed with what someone else
had just stated is not sufficient to show his
pleas were not voluntary and intelligent. When
the record is examined as a whole, it is clear
that Harkey revealed an understanding of the
charges and a desire to plea guilty. He also
signed statements acknowledging his guilt and
waiving various rights. Thus, he did not show by
a preponderance of the evidence that his 1979
guilty pleas were not voluntary and intelligent.

28

Since we hold that the two 1979 burglary
convictions are constitutionally valid, the fifteen
year sentence imposed by the district coutt
must be sustained. The two 1979 convictions,
along with the 1984 burglary conviction, require
a fifteen year mandatory minimum sentence
under the Armed Career Criminal Act, 18 U.S.C.
5 924(e). Though we see no defects in the 1977
convictions either, we need not reach the
question of whether they are constitutionally

Ltt^.//laaalin onmln'ace/IIniterl Stqtcc V Minhqpl F.lloene. Harkew

9/4/2017

unlreo Jtares v. lulcnael tugene HarKey (yu) l.2d

5

/5)

Page 9 o1'l I

defective, because the 1979 and 1984
convictions suffice.

29

AFFIRM ED.

The panel unanimously finds this case suitable
for decision without oral argument.
Fed.R.App.P. 34(a); 9th Cir. 34-4

lfbnorable David A. Exra, United States
District Judge for the District of Hawaii,
sitting by designation
Thils disposition is not appropriate

for
publication and may not be cited to or by
the courts of this circuit except as provided
by Ninth Circuit Rule 36-3

If the record from prior plea proceedings is
\-

silent on a defendant's waiver of his rights
to a jury trial, to confront witnesses
against him, and to refuse to testify, then
the burden shifts to government to prove
that the waiver was voluntarily and
knowingly made. United States v. Butcher,
926 F,zd 811, 817 (9th Cir.199t); United
States v. Pricepaul, 54O F.2d 4L7t 429 (gth
Ctr.L976). Here, the record was not silent.
It showed that Harkey waived his rights
and understood the charges he faced. Thus,
the burden did not shift to the government
Since a factual predicate was established in
the state court records for both the 1977
and L979 convictions, we do not have to
resolve the question of whether a factual
predicate is mandated in state court by the
United States Constitution. See Newman,
9L2 F.2d at LL23 (noting that defendant

http:/llegaliq.com/CaseAJnited States

V

Michael Eusene Harkev

9/4/2017

United States v. Michael Eugene I{arkey (985 F.2d 575)

Page 10

of

I

1

failed to cite any authority that a factual
predicate is required in state court by the
Constitution)

REFERENCED CASES
United States v.
United States v.
United States v.
Hudson II
United States v.
United States v.
United States v.
United States v.
United States v.
United States v.
United States v.
Taylor v. United
.,

Llill

Brent Paul Swanson
Jerard J. Signori
Charles Zweber v. Jerry Allen

-:t'

'::l

Erwin Darrell Newman
Randall Wilford Pricepaul
Jacobo Graibe
Michael Eugene Harkey
Godfrey Carroll
Lloyd Eugene Butcher
Hector Martin Ramos
States

.

i:j

'..:5
,

''

ri::;
iai

i:t:i
,at

,iiR

:

1-.r

V

I aaltha*

\-

LINK TO THIS COURT CASE
Did you want to cite the UNITED STATES V. MICHAEL
EUGENE HARKEY court case? Copy and paste the below
to your blog or Web page or create a forum post.

/

los

HTML Lin

copy

ll

m

/

UBBCode Lin

r

copy

it / Markup Li
llhttp://leqalio,comrcase/United States

FOUNDATIONLEGAL
NOTICES

V

Michaell Copy

woRD oF THE DAY

ABOUT US

l^*n. lAaaolin nn,-l(1a<p/ITnifcrl Sfcfec V Michael F.rrgene Harkev

/

NEWSLETTER
SUBSCRIBE

914/2017

